 California’s One-Stop
 Readiness Under the
Workforce Investment Act




                    Report No: 02-00-210-03-390
                    Date:   February 22, 2000
                                              TABLE OF CONTENTS


                                                                                                                                 PAGE

ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION

          BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

          OBJECTIVES AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


AUDIT RESULTS:

          1.         Including All WIA Required One-Stop Partners . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          2.         Opening Centers in Each Local Area . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          3.         Establishing Agreements with Agencies Providing
                     WIA Required Partner Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          4.         Developing a Financial System Able to Meet One-Stop
                     Needs Under WIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          5.         Developing a Data Collection System Able to Meet
                     One-Stop Needs Under WIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          6.         Providing Access to Services at the One-Stop Centers . . . . . . . . . . . . . . . . . . . . . 9


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


APPENDIX:

          Employment Development Department Response to Draft Report . . . . . . . . . . . . . . . . . . 12
                         ACRONYMS



EDD    Employment Development Department


ETA    Employment and Training Administration


JTPA   Job Training Partnership Act


JTA    Job Training Accountability


LWIB   Local Workforce Investment Board


MOU    Memorandum of Understanding


OSO    Employment Development Department One Stop Office


PBA    Performance-Based Accountability


SDA    Service Delivery Area


SWIB   State Workforce Investment Board


UI     Unemployment Insurance


WIA    Workforce Investment Act




                                -i-
                                  EXECUTIVE SUMMARY

This report presents the results of the audit of the State of California’s One-Stop career center system.
The audit objective was to assess the status of California’s One-Stop career center system relative to
where it needs to be to meet Workforce Investment Act (WIA) requirements. This report provides the
reader with a snapshot as of December 9, 1999, of where California stands in implementing WIA
requirements and actions to be taken by July 1, 2000.

WIA was passed in August 1998 to reform Federal job training programs and create a new,
comprehensive workforce investment system. The cornerstone of the new workforce investment
system is One-Stop service delivery, which unifies numerous training, education and employment
programs into a single, customer-friendly system in each local area. WIA requires that states complete
full implementation by July 1, 2000.

                                      California had not formed a State Workforce Investment Board
 AUDIT RESULTS
                                      (SWIB) as of December 9, 1999. A SWIB is paramount to
                                      establishing a comprehensive workforce investment system. In its
response to the draft report, California informed us that on December 17, 1999, the Governor
announced the appointment of members to the newly created State Board.

Given the recent appointments to the SWIB, California will need strong commitments by State and
local governments and WIA required partners to meet the July 1, 2000 deadline. California needs to
continue its efforts in the following areas to meet the requirements for a One-Stop career center system
under WIA:

        •       ensure all WIA required partners are on the SWIB, establish Local Workforce
                Investment Boards (LWIBs), and include all WIA required partners in the One-Stop
                system;

        •       establish a One-Stop career center in each local area;

        •       develop and execute Memoranda of Understanding (MOUs) with program partners;

        •       provide guidance to LWIBs regarding allowable costs;

        •       implement data collection and reporting systems which include all WIA elements; and

        •       improve the public’s awareness of the role of the One-Stop centers.




                                                  -1-
                                      INTRODUCTION


The Director for the Employment Development Department of the State of California responded to our
draft report on February 18, 2000. The Director addressed the recommendations contained in the
                              draft report and outlined actions taken subsequent to our fieldwork. The
                              response has been incorporated into the report and included in its
                              entirety as an Appendix.

                                WIA was passed in August 1998 to reform Federal job training
 BACKGROUND
                                programs and create a new, comprehensive workforce investment
                                system. The cornerstone of the new workforce investment system is
One-Stop service delivery, which unifies numerous training, education, and employment programs into
a single, customer-friendly system in each community. WIA requires that states complete full
implementation by July 1, 2000. Interim final regulations, effective May 17, 1999, provided further
direction on WIA requirements.

California was awarded an implementation grant on November 18, 1994, to develop a One-Stop
system. California’s Employment Development Department (EDD) administered the implementation
grant. The grant, as modified, provided $23,781,500 in funding through January 2, 2000. As of
September 30, 1999, California had reported expenditures of $11,687,405 and unliquidated
obligations of $10,190,237.


                                        The audit objective was to assess the status of California’s
 OBJECTIVES AND SCOPE
                                        One-Stop career center system relative to where it needs to be
                                        to meet WIA requirements by July 1, 2000.
Subobjectives were to assess the status of California’s One-Stop career center system in:

       1.      including all WIA required One-Stop partners,
       2.      opening centers in each local area,
       3.      establishing agreements with agencies providing WIA required partner services,
       4.      developing a financial system able to meet One-Stop needs under WIA,
       5.      developing a data collection system able to meet One-Stop needs under WIA, and
       6.      providing access to services at the One-Stop centers.

In performing this audit, we conducted interviews with officials from ETA, EDD, and three
One-Stop career centers in the cities of Woodland (Yolo Community Partnership Agency), Santa Rosa
(Sonoma Job Link), and Anaheim (Anaheim One-Stop Career Employment Center). We reviewed
and analyzed services for job seekers and employers, and other planning and implementation
documents from various sources. We did not assess One-Stop career center performance, customer



                                                 -2-
satisfaction, or customer choices. We also did not review internal controls relative to the One-Stop
career center system.

The audit was performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. We conducted fieldwork from November 29, 1999 to
December 9, 1999, and held an exit conference with EDD officials on December 9, 1999.


                                       AUDIT RESULTS

1. Including All WIA Required One-Stop Partners

WIA, Title I, Subtitle B, Chapter 3, Section 121(b)(1)(B) requires as partners those entities that carry
out specific employment, training and education programs and activities. WIA requires that program
partners be represented on the SWIB and Local Workforce Investment Boards (LWIBs), and be
accessible through the One-Stop career centers.

As of fieldwork, California’s One-Stop career center system did not meet the WIA requirement for
including all WIA required partners in the system. State and local boards had not been formed and not
all required partners were accessible through the One-Stop career centers.

State Workforce Investment Boards

California had not formed a SWIB as of December 9, 1999. On October 10, 1999, the Governor
signed an executive order to establish the California Workforce Investment Board, and dissolve the
State Job Training Coordinating Council which had made all WIA implementation decisions. However,
the SWIB cannot be formed until the Governor appoints members to the Board, and as of December
9, 1999, no board members had been appointed. At that time, State officials were unsure as to
whether all the required partners had submitted applications for membership and what the make-up of
the board would be.

In its response, EDD stated:

        . . . On December 17, 1999, the Governor announced the appointment of 62
        members to the newly created State Board. . . . The 64 members of the new State
        Board include the Governor, representatives of the State Legislature, business,
        local elected officials, organized labor, youth programs, education, lead State
        agency officials, and community-based organizations. . . . These actions
        established the policy and administrative structure necessary to implement and
        operate WIA in California.

California’s newly created SWIB needs to address the following WIA requirements:



                                                  -3-
                •       develop and establish a continuous improvement mechanism for a Statewide
                        system of activities funded under WIA;

                •       develop allocation formulas for the distribution of funds;

                •       develop and establish a continuous improvement mechanism for comprehensive
                        performance measures to assess the effectiveness of workforce investment
                        activities;


                •       prepare the annual report to the Secretary; and

                •       develop the Statewide employment statistics system.

Local Workforce Investment Boards

LWIBs had not been formed in California. The development of LWIBs is contingent upon the
formation of the SWIB, which is responsible for assisting the Governor in defining local workforce
investment areas and overseeing LWIB development. State officials believe local workforce investment
areas will be similar to the Service Delivery Areas (SDA) under the Job Training Partnership Act
(JTPA). Some SDAs (Santa Rosa and Woodland) have been approaching representatives of business,
education, labor, and government for potential membership on the LWIB.

EDD stated:

        . . . On January 28, the State Board recommended fifty-two areas for Governor
        designation. The local areas are continuing to move forward with WIA
        implementation. At this time local areas are allowed to use interim boards
        pending the State Board’s development of final LWIB membership criteria. . . .

One-Stop Career Centers

California left the development of partnerships at the One-Stop centers to the local areas.
Consequently, the partnerships varied from area to area with some of the WIA required partners
involved in some areas but not in others. California identified prospective partners but had not taken
steps to ensure that all the required partnerships were in place at the local level. While some One-Stop
centers took steps to ensure all required partners were on board, California had not taken steps to
ensure that specific customer groups, such as those served through the Indian and Native American and
Job Corps programs were served throughout the One-Stop delivery system.

EDD noted that:




                                                  -4-
        All local One-Stop partnerships, that have received California One-Stop Career
        Center System grants, meet mandatory partnership requirements as required by
        the 1996 DOL Grant to California. California has taken steps to ensure that all
        the WIA required partnerships are in place at the local level. In the final round of
        local grants for California One-Stop system building, partnerships were required
        to identify how all WIA-required partners would be included in the planning and
        implementation process. . . . The State will also conduct evaluation and oversight
        of WIA activities as required, in order to analyze system performance
        longitudinally. . . .

2. Opening Centers in Each Local Area

WIA, Title I, Subtitle B, Chapter 5, Section 134(c)(2)(A) requires, at a minimum, that each of the
required programs, services, and activities be accessible in at least one physical center in each local
area of the State. The Governor had not designated local workforce investment areas as of December
9, 1999. However, State officials indicated that the local workforce investment area designations
under WIA should be similar to the 52 SDA designations under JTPA.

California has two mechanisms to open One-Stop career centers throughout the State. One
mechanism is that local areas receive subgrants from the State’s One-Stop implementation funding to
develop and open One-Stop centers. These centers are monitored by EDD and have been classified
as being full-service, satellite or kiosk. The other mechanism is
self-identification, in which the SDA forms One-Stop centers in local areas without One-Stop
implementation funding. The State has not monitored these self-identified centers or classified these
centers as being full-service, satellite or kiosk.

California had 115 One-Stop centers, including 54 satellite offices across the State, but did not meet
WIA requirements of having a full service center in each SDA. Nine out of the 52 SDAs did not have
a full-service One-Stop center in their local area.

        •       Five local areas’ (Imperial, Kings, Merced, San Joaquin, and Santa Cruz counties)
                self-identified centers had not been classified by the State as to the level of services
                available.

        •       Four local areas (Madera County, City of San Bernardino, San Louis Obispo County
                and Stanislaus County) had satellite offices which may be able to expand to become a
                full service center.

EDD stated:

        . . . As outlined in the State’s draft Strategic Five-Year Plan for Title I of the WIA,
        the State will work with local partnerships that have experience in operating
        centers that meet all of the new WIA requirements in order to develop

                                                   -5-
        certification standards for consideration by the State Board. This should assure
        that by July 1, 2000 all local areas have at least one full service One-Stop center
        in their area as required by WIA.

3. Establishing Agreements with Agencies Providing WIA Required Partner Services

20 CFR 662.230(c) states that all WIA required partners must:

        Enter into a memorandum of understanding (MOU) . . . relating to the operation of the
        One-Stop system . . . including a description of services, how the cost of the identified
        services and operating costs of the system will be funded, and methods of referral.

MOUs were not executed with WIA required program partners. Some local One-Stop centers had
agreements with program partners but none of these agreements met WIA requirements for MOUs.
California’s EDD developed a model MOU template which contains general information on cost
allocation and procedures for modification/termination of the MOU. This template was a draft, pending
approval by the SWIB. However, LWIBs have the ultimate responsibility for the development of the
MOUs and ensuring the establishment of long-term funding streams for continued viability of the One-
Stop centers.

EDD responded:

        In the past, partners have negotiated a variety of local agreements. These
        agreements lay the groundwork for WIA MOUs. California’s Initial Planning
        Guidance and Instructions requires local areas to coordinate with required and
        optional One-Stop partners and to identify local service needs. Agreements
        regarding how these services are coordinated and delivered will be reflected in
        local MOUs. . . .

4. Developing a Financial System Able to Meet One-Stop Needs Under WIA

WIA, Subtitle E, Section 184(a)(1) requires that each state establish fiscal controls and fund accounting
procedures. 20 CFR 662.270 provides further direction, stating:

         . . . Each partner must contribute a fair share of the operating costs of the One-Stop
        delivery system proportionate to the use of the system by individuals attributable to the
        partner’s program. . . . Some of these (allocation) methodologies include allocations
        based on direct charges, cost pooling, indirect cost rates and activity-based cost
        allocation plans. . . .

EDD, the administrator for the State’s One-Stop system, has an accounting system which is adequate
for capturing center costs in aggregate. The State left the responsibility of allocating sub-state costs to
the local One-Stop centers. This means that each LWIB has the responsibility of making sure that each

                                                   -6-
co-located and non co-located partner are paying their fair share of operating costs. However, One-
Stop centers did not have cost allocation plans to meet WIA requirements.

The State plans to monitor each LWIB to ensure that partners pay their share of all operating costs. It
was unclear which department would have the responsibility for monitoring the financial system at the
local area. A committee recommended use of the JTPA monitoring department, subject to approval by
the SWIB.

In its response, EDD stated:

        The State will provide guidance regarding allowable costs and information about
        resources available to develop appropriate cost allocation systems.
        However, the development of a cost allocation methodology among the partners is a
        local issue. Locally developed cost allocation methodology will comply with Federal and
        State legislative and administrative requirements.


5. Developing a Data Collection System Able to Meet One-Stop Needs Under WIA

WIA, Title I, Subtitle B, Chapter 3 Section 122 (d)(1) and Chapter 6 Section 136(d)(2) require that a
One-Stop data collection system be able to collect and report certain data elements for all customers
who receive more than self-service and informational services.

California uses multiple data collection systems to gather and report customer activities. Each program
partner brought its own data collection system into the One-Stop environment. These data collection
systems were unable to share information. However, California is developing the Access system, which
will enable the program partners to share data, facilitate common intake, and utilize a team approach to
case management. When fully functional, Access should streamline the data collection process and
eliminate repetitive input of data for customers enrolled in multiple programs.

California plans to utilize the Job Training Accountability (JTA) and the Performance-Based
Accountability (PBA) systems for WIA data collection and reporting.

Job Training Accountability

The Job Training Accountability (JTA) system was designed to track customer activities and outcomes
for the JTPA program using access to wage information from the California Unemployment Insurance
(UI). This system is going to be the principal WIA tracking and reporting system and is being revised
to match specifications per ETA guidelines. California is using ETA guidelines, Proposed Checklist
for a WIA Standardized Record (WIASR) and Consultation Paper on Performance
Accountability Measurement for the Workforce Investment System under Title I of the
Workforce Investment Act, until further clarification is provided. California expects the system to be
modified and operational by July 1, 2000.

                                                 -7-
The JTA system will also collect financial data from local areas. SDAs were only required to report
JTPA financial data in aggregate for program costs and administration. State officials indicated that
when ETA establishes the criteria for the financial data needed to calculate the cost of workforce
investment activities, the JTA system will be modified to include additional financial elements.

Performance-Based Accountability

PBA was designed to receive data from various workforce preparation programs and apply a single set
of performance measures to these programs. In addition to California wage information, PBA has
linkages with other external sources for outcome data:




                •       interstate wage information from Washington State;

                •       Federal wage information resources, such as Department of Defense, U.S.
                        Postal Service, and the Office of Personnel Management; and

                •       non-wage outcomes from Corrections, Education, Temporary Aid to Needy
                        Families and General Assistance.

PBA’s access to outcome information should make it possible to produce core measures of
performance and training provider evaluation lists. However, in its current form, PBA does not
provide timely information. State officials indicated the system will either be modified or will serve as
the basis for developing another system which will be able to meet WIA needs in a more timely fashion.

Other data collection issues still being addressed by California include:

                •       interstate wage data for customers who move into the State from other areas or
                        obtain employment out of State, and

                •       the initial training provider list.

In its response, EDD stated:

        The Employment Development Department (EDD) has been designated to
        maintain and disseminate the Employment Training Provider List (ETPL) for the
        first year of WIA program operations. The State plans to have an interim ETPL
        in place on July 1, 2000, for use during at least the first year of WIA program
        operation. Concurrently, the State will develop a more comprehensive Consumer
        Report System, which will include the ETPL. . . . The State plans to use
        standardized basic service and performance data will require Local Boards to
        submit updated information on providers. . . .

                                                      -8-
6. Providing Access to Services at the One-Stop Centers

The introduction to the Interim Final Rule (page 18668-9) states that One-Stop delivery systems should
be user friendly and LWIBs should coordinate with the broader community, including transportation
agencies, to ensure the centers are accessible to all customers.

We visited three One-Stop career centers. We found these centers offered self and staff assisted
services. Facilities were clean and equipped with standard and specialized equipment for mobility
impaired persons. The aisles were wide enough to accommodate wheelchairs. Municipal parking,
including designated handicapped spaces, and access to public transportation was available at the sites.
However, signs at the Anaheim One-Stop Career Employment Center need to be made more visible
from the street, so the general public is made aware of the location of the center and services offered.
Also, the Yolo Community Partnership Agency and Sonoma Job Link centers did not have computer
screens for customers with visual impairments.

The style of centers varied from buildings scattered throughout a strip mall (Yolo Community) to an
office on the third floor of a four-story office building (Anaheim). One center was spread out in
different buildings, making it difficult for an individual to move about easily. Most of the time the doors
were locked and a person could not enter the building without the assistance of center staff. Based on
our observation, it was easier for a customer to obtain information when the center was located in just
one building.

Resource rooms at the centers were designed to encourage public use. Computers were user friendly
and had programs for word processing, resume writing, CalJOBS (CA job listings), and Internet
access. At the Anaheim One-Stop Career Employment Center, claimants had to reserve a computer
because of the shortage of hardware; however, the center had computers on order to resolve this
problem. In California, UI claims are filed by telephone, and centers had dedicated phone lines to file
UI claims. Also, telephones were located next to the computers so when claimants found a job through
CalJOBS, they could call the employer immediately to arrange for an interview. Staff was available to
assist customers and demonstrate computer usage.

EDD responded:

        Signage at all One-Stops is subject to local ordinances which sometimes limits the
        size and placement of signage. Faced with these restrictions, local centers are not
        always able to locate signage close to the street, but do strive to make their
        centers as visible to the public as possible. . . .

        Both of these One-Stop Centers (Yolo Community Partnership Agency and
        Sonoma Job Link) contract with an agency that provides aid to the visual and
        hearing impaired as well as monolingual customers. They believe that they
        effectively handle all clients with impairments. These contracted individuals are

                                                   -9-
       available not only at intake but assist throughout the training as well. Self-
       service is an important feature of California’s One-Stop Centers. The State will
       continue to encourage One-Stop Centers to use innovative approaches to ensure
       that information and services will be accessible to this customer group.

       While it is true that a One-Stop Center located in one building is easier for
       customer flow, it is not always possible for centers to be located in one building.
       In urban California high real estate costs coupled with a shortage of suitable
       building sites may necessitate the location of One-Stops in multistory or multiple
       building complexes. . . .




                                   RECOMMENDATION

We recommend that the Assistant Secretary for Employment and Training ensure that California
implements WIA One-Stop requirements. By July 1, 2000, California needs to:

       1.      Include all WIA required One-Stop partners by:

               S       ensuring SWIB and LWIBs appointed members represent all WIA required
                       program partners: representatives from labor, government, education, low
                       income, and a business majority; and

               S       ensuring that all required partners are in place at the local level, including the
                       Indian and Native American, and Job Corps programs.

       2.      Complete the designation of the local workforce investment areas and ensure they open
               a minimum of one physical center, in each local area, which provides access to all of the
               WIA required programs, services and activities.

       3.      Ensure local areas develop and execute comprehensive MOU agreements with all
               required partners which include provisions covering:

               S       services to be provided;

               S       the funding of services and operating costs; and

               S       methods for referring customers between partners and services coordination.



                                                  -10-
4.   Ensure local areas develop cost allocation plans that fairly charge One-Stop operating
     costs to benefitting partner programs.

5.   Implement data collection and reporting systems which include all WIA elements.

6.   Improve customer access to services through better use of signs to identify the One-
     Stop center and services offered.




                                     -11-
